               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




   U.S. Postal Service Alternative Health
            Care Plan Proposal

         Management Advisory Report




                                              August 22, 2012

Report Number FI-MA-12-014
                                                                          August 22, 2012

                                                        U.S. Postal Service Alternative
                                                            Health Care Plan Proposal

                                                           Report Number FI-MA-12-014



BACKGROUND:
Legislation requires the U.S. Postal          future retiree health care obligation.
Service to pre-fund its retiree health        Thus, management understated the
care benefits obligation and fund its         adjusted original liability of $90.2 billion
retiree health care premiums (at about        by $14.1 billion, when it should actually
$8 billion annually), and provide             have been $104.3 billion. This, however,
employee benefits that are comparable         does not impact the overall $63 billion in
to those paid in the private sector.          cost savings. Subsequent to our review
However, these annual payments,               of the proposal, the Postal Service
coupled with declining revenue, have          informed us it removed from its proposal
challenged the Postal Service’s ability to    the plan to freeze the monthly premium
meet all its obligations.                     amount it contributes to those retiring
                                              after January 1, 2014. Thus, the
Management proposed to decrease               estimated savings associated with the
costs by over $63 billion by offering its     proposal would be reduced by about
own health care benefits plan instead of      20 percent, or $11 billion due to this
participating in the Office of Personnel      change.
Management (OPM) Federal Employees
Health Benefits plan. These savings are       Finally, we noted the Postal Service did
due primarily to 1) required accounting       not have access to its employee and
changes, 2) use of Medicare coverage,         retiree actual claimant data to ensure it
3) impact on employees, future retirees,      has data available to run its plan.
and retirees, and 4) efficiencies in health
care purchasing.                              WHAT THE OIG RECOMMENDED:
                                              We recommended revising the
The objective of the review, requested        alternative health care plan to include
by the postmaster general, was to             rates appropriate for funding
evaluate the reasonableness of the            assumptions; clearly communicating the
assumptions in management’s proposal          impact of transitioning to the proposed
and impact on the unfunded health care        plan to all affected employees, future
obligation.                                   retirees, retirees, and the government;
                                              and obtaining historical claims data from
WHAT THE OIG FOUND:                           OPM to ensure the Postal Service has
While the $63 billion in proposed             the best data available when selecting a
savings is reasonable, we found that          provider to administer its plan.
management used an incorrect funding
interest rate assumption to establish its     Link to review the entire report
August 22, 2012

MEMORANDUM FOR:             STEPHEN J. MASSE
                            ACTING CHIEF FINANCIAL OFFICER AND
                             EXECUTIVE VICE PRESIDENT

                            ANTHONY VEGLIANTE
                            CHIEF HUMAN RESOURCES OFFICER AND
                             EXECUTIVE VICE PRESIDENT




FROM:                       John E. Cihota
                            Deputy Assistant Inspector General
                             for Financial Accountability

SUBJECT:                    Management Advisory Report – U.S. Postal Service
                            Alternative Health Care Plan Proposal
                            (Report Number FI-MA-12-014)

This report presents the results of our review of the U.S. Postal Service’s Alternative
Health Care Plan Proposal (Project Number 11BD014FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice Millett, director, Policy
Formulation and Financial Controls, or me at 703-248-2100.

Attachments

cc: Patrick R. Donahoe
    Joseph Corbett
    Cynthia Sanchez-Hernandez
    Robert A. Dufek
    Robert J. Pedersen
    Corporate Audit and Response Management
U.S. Postal Service Alternative Health Care Plan Proposal                                                           FI-MA-12-014



                                                 TABLE OF CONTENTS
Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 3

Required Change in Accounting ......................................................................................... 5

Use of Medicare Coverage ................................................................................................. 7

   Medicare Eligibility of Prior Post Office Department Employees ................................... 7

   Medicare Part B Enrollment Penalties ............................................................................ 8

Impact on Employees, Future Retirees, and Retirees ....................................................... 8

   Change in the Order of Payment Responsibility for Those Who Retire After
   January 1, 2014 ............................................................................................................... 9

   Postal Service Share of Monthly Premiums ................................................................... 9

   Four-Tier Coverage Structure ....................................................................................... 10

Efficiencies from Purchasing Initiatives ............................................................................ 12

Availability of Office of Personnel Management Claims Data ......................................... 12

Recommendations ............................................................................................................ 13

Management’s Comments ................................................................................................ 13

Evaluation of Management Comments ............................................................................ 14

Appendix A: Additional Information................................................................................... 16

   Background .................................................................................................................... 16

   Objective, Scope, and Methodology ............................................................................. 18

   Prior Audit Coverage ..................................................................................................... 18

Appendix B: Other Impacts ............................................................................................... 19

Appendix C: Actuary Report ............................................................................................. 20

Appendix D: Management’s Comments ........................................................................... 48
U.S. Postal Service Alternative Health Care Plan Proposal                                              FI-MA-12-014



Introduction

This report presents the results of our review of the U.S. Postal Service’s proposal to
provide an alternative health care benefits plan 1 to its employees and retirees (Project
Number 11BD014FT000). We conducted this review at the request of the postmaster
general. The objective of the review was to evaluate the accuracy of the critical
assumptions and reasonableness of projected cost savings in its proposal to leave the
Federal Employees Health Benefits (FEHB) plan. This review addresses financial and
strategic risk. See Appendix A for additional information about this review.

The Postal Service is required to pre-fund its retiree health care benefits obligation 2 and
provide employee benefits comparable to those paid in the private sector for
comparable levels of work. 3 In addition to paying annual retiree health care premiums of
$2.4 billion, the Postal Service pre-funds the Retiree Health Benefits Fund by about
$5.6 billion annually to address its future health care benefits obligations. 4 The Office of
Personnel Management (OPM) has estimated that the Postal Service’s retiree health
care obligation will be $102 billion 5 by September 30, 2013. 6 It is projected that in 2013,
the fund will have assets of $49 billion, leaving an anticipated unfunded balance of $53
billion. 7 However, these annual payments, coupled with declining revenue, have tested
the Postal Service’s ability to meet its operational and legislative obligations. In fact, the
Postal Service did not make the required pre-funding payment due in August 8 and has
indicated it will not be able to make the required pre-funding payment due in September
2012.

During FY 2011, the Postal Service faced challenges that prompted significant changes,
including a large reorganization 9 and efforts to reduce expenses. 10 Of the $74.8 billion
in annual expenses, $58.8 billion (79 percent) are personnel expenses. Of the
$58.8 billion in personnel expenses, $21.5 billion (37.0 percent) are benefits-related.
Management requested additional legislative changes in an effort to decrease costs and
has proposed to further decrease costs by offering its own health care plan instead of
continuing to participate in the FEHB plan. The Postal Service initially provided the U.S.

1
  Postal Service employees and retirees currently participate in the Federal Employees Health Benefits (FEHB) plan
managed by the Office of Personnel Management. FEHB is a multi-employer plan, which is a bargained health care
plan maintained by more than one employer, usually within the same or related industries.
2
  Postal Accountability and Enhancement Act of 2006.
3
  Postal Reorganization Act, 39 U.S.C. §1003(a).
4
  The Postal Service has not yet paid the $5.5 billion for fiscal year (FY) 2011.
5
  This amount and others in this report are derived from unpublished actuarial data and may not match published
financial data.
6
  On September 30, 2011, the Postal Service estimated its retiree health benefits obligation was $90.3 billion.
7
  The Postal Service’s total health care obligation of $102 billion, less plan assets of $49 billion, equals the unfunded
health care obligation of $53 billion.
8
  A $5.5 billion pre-funding payment was originally required in September 2011 but was deferred, ultimately, to
August 2012.
9
  The Postal Service announced an organizational redesign in FY 2011 which reduced the number of area and district
offices and will decrease the number of authorized administrative, supervisory, and postmaster positions by about
7,500 over the next 3 years.
10
   Expense reductions included reducing workhours by 225 million from the FY 2009 negotiated union labor contract
figures; temporarily suspending the Postal Service’s contribution into the Federal Employee Retirement System; and
planning for optimization of its mail processing, delivery, and retail networks along with revisions to service standards.

                                                            1
U.S. Postal Service Alternative Health Care Plan Proposal                                             FI-MA-12-014



Postal Service Office of Inspector General (OIG) with a proposed retiree health care
benefits plan on September 23, 2011. We reviewed it and provided informal comments
to management for their consideration. The Postal Service provided a revised plan to
the OIG for further analysis, based on discussions with stakeholders and considering
our initial comments, on February 10, 2012. Management’s revised plan included the
following seven components that offer cumulative savings: 11

    A change in accounting for health care costs.

    Required participation in Medicare Parts A and B. 12

    Implementation of Medicare Part D Employer Group Waiver Plan with wraparound
     (EGWP/wrap) benefits. 13

    A shift to a four-tier health care coverage structure. 14

    Implementation of improved private sector-style health care purchasing initiatives.

    A change in the order of responsibility for paying health care costs (carve-out).
     Under this process, employees who retire on or after January 1, 2014, will need to
     meet a standard deductible before the Postal Service pays any costs not covered by
     Medicare.

    A freeze on the Postal Service’s employer dollar contributions for those who retire on
     or after January 1, 2014. Subsequent to our review of the February 10, 2012,
     proposal, the Postal Service informed us it removed this provision from its health
     care proposal. The Postal Service estimated this aspect of the plan would have
     saved $11.1 billion.

For purposes of this report, we have consolidated the seven components above into
four categories: required change in accounting; use of Medicare coverage; impact on
employees, future retirees, and retirees; and efficiencies achieved from purchasing
initiatives.




11
   See Appendix A for more information regarding the components.
12
   Medicare is a national social insurance program administered by the U.S. Department of Health and Human
Services that guarantees access to health insurance for Americans ages 65 and older, among others. Medicare
offers all enrollees a defined benefit. Hospital care is covered under Part A and outpatient medical services are
covered under Part B. Part D covers outpatient prescription drugs exclusively through private plans — either
standalone prescription drug plans or Medicare Advantage plans that offer prescription drugs. See
http://www.medicare.gov/Publications/Pubs/pdf/10050.pdf for further information.
13
   EGWP/wrap is an official Medicare Part D program containing a provision that ensures retired employees will
receive benefits at least equal to those in their current employer plan. In addition, it allows an employer to achieve
significant plan savings above any savings achieved as a result of participating in Medicare’s retiree drug subsidy
program alone.
14
   The current FEHB two-tier program offers self and family options only. A four-tier program would offer self, self and
spouse, self and children, and self and family.


                                                           2
U.S. Postal Service Alternative Health Care Plan Proposal                                              FI-MA-12-014




Conclusion

We believe the proposed plan’s projected cost savings of $63.1 billion are reasonable
and will ensure that future retiree health care costs are sufficiently funded by projected
assets. Chart 1 provides an illustrative breakdown of where the savings are derived.

                 Chart 1: Postal Service Alternative Health Care Plan Savings 15



                                                             Proposed Savings
                                           3%

                                 18%
                                                                                                                Cov
                      20%                                         59%
                                                                                                                Imp
                                                                                                                Reti
                                                                                                                Req
                                                                                                                Acco
        Source: OIG analysis of Nyhart Review of USPS Retiree Health Actuarial Projections by the Hay Group,
        dated June 26, 2012. See Appendix C for a copy of the report.


However, we did find that the Postal Service did not always apply the appropriate
assumptions in the development of its proposal to leave the FEHB plan and create its
own retiree health care benefits plan.

    As a result of using an incorrect funding interest rate assumption to establish its
     future retiree health care obligation, management understated the adjusted original
     health care benefit obligation of $90.2 billion by $14.1 billion, when it should actually
     have been $104.3 billion. As noted previously, this did not impact the
     reasonableness of the cost savings.

    The original health care proposal did not exclude all populations who were ineligible
     for Medicare from savings projections. As a result of our analysis, management
     revised its assumption to exclude those that were ineligible for Medicare, reducing
     its projected savings by about $307 million.


15
  Subsequent to our review of the February 10, 2012, proposal, the Postal Service informed us it removed from its
health care proposal its plan to freeze the dollar amount of the monthly premium it contributes to those retiring after
January 1, 2014. The Postal Service estimated this feature would have saved about $11.1 billion.


                                                            3
U.S. Postal Service Alternative Health Care Plan Proposal                                          FI-MA-12-014



Further, we identified four additional issues that should be considered should the Postal
Service implement its proposed alternative health care plan.

      The Postal Service needs to clearly communicate the impact of its proposed plan on
       the federal government, current employees, future retirees, and retirees.

      Current legislation requires those eligible for Medicare Part B to enroll by age 65.
       Many Postal Service retirees 16 are older than 65 years of age and not currently
       enrolled in Medicare. Therefore, those older than 65 who do not timely enroll would
       be assessed a late enrollment penalty. We determined that this penalty could cost
       employees or the Postal Service an additional $53 million per year. Management
       assumed, in calculating projected cost savings, that the penalty would be waived but
       did not include how they will address this penalty in their plan. Resolution of this
       matter and the impact on applicable retirees should be clearly communicated. The
       Postal Service’s proposal includes a congressional waiver of the mandatory late
       enrollment penalty for enrollees who fail to enroll in Medicare after their initial
       eligibility period.

      The Postal Service does not have access to its employee and retiree actual claimant
       data. It is critical that the Postal Service know and understand how its employees’
       and retirees’ claims data performs, particularly as it solicits and selects an
       organization to implement its health care plan.

      Upon implementation of an alternative health care plan, the Postal Service will need
       to determine the appropriate discount (interest) rate to report its health care
       obligations in its financial reports. We believe that accounting standards allow for
       options in determining which discount rate to use, including the rate used by the
       Postal Service to compute these costs savings, or a private sector rate. We are not
       making a recommendation at this time on this issue.

Table 1 summarizes the plan’s costs and estimated savings by category.




16
     The estimated Postal Service Medicare-eligible population not enrolled in Part B is 88,000.


                                                             4
  U.S. Postal Service Alternative Health Care Plan Proposal                                              FI-MA-12-014




                        Table 1. Comparison Summary of Estimated Cost Savings

                                                                                   OIG Review
                                                       Postal Service              of Proposed
                                                       Proposed Plan                         Plan                 Difference
Category                                                  (in billions)             (in billions)                (in billions)
Required Change in
Accounting                                                         $11.3                    $12.1                         +$0.8
Use of Medicare Coverage:
  Integration of Medicare
     Parts A and B                                                   16.2                    19.2                          +3.0
  Implementation of Medicare
     Part D                                                          21.0                    23.7                          +2.7

Subtotal                                                           $37.2                    $42.9                         +$5.7
Impact on Employees, Future
Retirees, and Retirees:
   Change to Claims Processing
     for Those who Retire on or
     After 1/1/2014                                                  $7.1                    $5.0                         -$2.1
   Freeze on Employer Dollar
     Contributions for Those who
     Retire on or After 1/1/2014.
     (Subsequent to our review,
     the Postal Service dropped
     this freeze from its proposal.)                                 11.1                    15.5                          +4.4
   Implementation of a Four-Tier
     Health Care Coverage Structure                                 (5.5)                    (7.2)                         -1.7

Subtotal                                                           $12.7                    $13.3                          +$.6
Efficiencies Achieved from
Purchasing Initiatives                                              $1.9                     $2.7                         +$0.8
Total                                                              $63.1                    $71.0                          $7.9
Source: OIG analysis of Nyhart Review of USPS Retiree Health Actuarial Projections by the Hay Group, dated June 26,
2012. See Appendix C for a copy of the report.

  As noted in Table 1, management’s calculations of estimated cost savings are more
  conservative than ours, by $7.9 billion. Therefore, we consider their estimates
  reasonable.

  Required Change in Accounting

  The Postal Service’s plan generates savings by changing from a multi-employer health
  care plan to a single employer plan. The effect of this change is a modification in the
  accounting for health care costs. As noted in Table 1, nearly 18 percent 17 of the Postal
  Service’s health care plan savings is generated by non-cash changes required by

  17
       $11.3 billion (required change in accounting component) divided by $63.1 billion (total estimated cost savings).


                                                               5
U.S. Postal Service Alternative Health Care Plan Proposal                                          FI-MA-12-014



generally accepted accounting principles when the Postal Service moves from the
current FEHB plan to its own health care plan. Although we generally agreed with the
assumptions used for this area, we noted the Postal Service used an incorrect funding
discount (interest) rate in the computation of its future retiree health care benefit
obligation as of FY 2013, the starting point for determining cost savings associated with
the plan. Further, should the Postal Service adopt its own health care plan,
management will need to shift from using OPM’s proprietary interest rate to one that
complies with generally accepted accounting principles for reporting future health care
obligations on its financial statements. Neither of these changes impacts the
reasonableness of the $63.1 billion in cost savings. The two issues are further
described below:

    The Postal Service used a proprietary funding discount rate from the OPM to
     estimate its retiree health care obligations for purposes of computing cost savings
     associated with the proposed plan. In determining the amount of savings to be
     generated from establishing its own plan, a more appropriate rate to use would be
     the rate currently applicable for reporting obligations for federal employee pension
     and other retirement benefits. 18 Use of the OPM rate is not suitable for determining
     cost savings without sufficient plan history (such as demographics and interest
     rates). If the Postal Service had a plan history or the OPM had provided such
     information, the OPM rate could be applicable. Since the Postal Service did not have
     plan history, it needs to use standard, published discount rates. It should be noted
     the Postal Service used the more appropriate rate (4.9 percent) for reporting its
     Retiree Health Benefit Fund asset value. 19

    FEHB is a multi-employer bargained health care plan maintained by more than one
     employer within the same or related industries, such as the federal government.
     Should the Postal Service implement its own single employer health care plan and
     leave FEHB, they would be required to change their accounting for the health care
     obligation as promulgated under generally accepted accounting principles. 20 As part
     of implementing an alternative single employer health care plan, the Postal Service
     will need to use a discount (spot) rate21 (currently about 4.5 percent 22) applicable to
     the private sector when publishing annual financial statements. Use of a spot rate is
     currently being used by Postal Service for other obligations. 23 Using the spot rate,
     instead of the rate management used, 24 the future retiree health care obligation
     would increase by $14.1 billion. Although this is a significant increase, using

18
   The federal rate more accurately reflects the Postal Service’s current borrowing and investment activity.
19
   Management’s future health care liability of $102.3 billion is based on the 5.75 percent rate used to compute
funding for Postal Service pensions. We believe the 4.9 percent rate used in the Postal Service’s Financial Report
Form 10-K, Fiscal Year 2011, based in underlying U.S. Department of Treasury investments and compliant
accounting standards, is more appropriate.
20
   Financial Accounting Standards Board’s Accounting Standards Codification 715.
21
   The current interest rate available on the market for a commodity, security, or currency.
22
   Average rate of corporate bonds from January 1 through March 31, 2012, based on a commonly used actuarial
bond index. Management should expect fluctuations in the actuarial liability as this market based assumption is
periodically adjusted.
23
   Workers’ Compensation Liability Estimate (Report Number FT-MA-11-002, dated December 23, 2010.)
24
   Management’s funding assumption is 5.75 percent.


                                                          6
U.S. Postal Service Alternative Health Care Plan Proposal                                            FI-MA-12-014



     management’s assumptions, we believe the Postal Service should have sufficient
     projected assets to fully fund its future obligations. 25 Since implementing an
     alternative health care plan is contingent on many factors, we are not making a
     recommendation for financial reporting of its health care obligations at this time.

Use of Medicare Coverage

As noted in Table 1, nearly 59 percent 26 of the Postal Service’s health care plan savings
is generated from requiring applicable employees and retirees to participate in the
Medicare program. Currently, up to 24 percent of Postal Service retirees age 65 and
older have not enrolled in some or all parts of the Medicare program. 27 However, the
Postal Service and its employees have contributed about $25 billion into the Medicare
program since 1983. By requiring all retirees to enroll in Medicare, management’s
alternative health care plan transfers the Postal Service’s health care costs to the
federal government.

For example, rather than submitting hospital or medical care provider service-related
claims under the Postal Service’s plan for payment, these claims would be processed
by Medicare Part A (hospital costs) or Part B (medical care provider costs), with the
Postal Service’s health care plan serving as secondary insurance. When the Postal
Service becomes the supplemental insurance provider, the primary financial obligation
is shifted to Medicare and has the effect of lowering the Postal Service’s future health
care obligation. The EGWP/wrap (Part D) allows for a prescription subsidy before
applying insurance benefits, maintaining the retiree’s share of the cost while the
employer achieves the cost savings. Therefore, moving to an EGWP/wrap arrangement
would allow a reduced employer share of annuitant claim costs for annuitants and
survivors over age 65.

While we agree that the overall cost saving initiatives related to the integration of
Medicare Parts A, B, and D are reasonable, we identified issues with two assumptions:
the Medicare eligibility of prior Post Office Department employees and Medicare Part B
enrollment penalties.

Medicare Eligibility of Prior Post Office Department Employees

In the original alternative health care plan provided to the OIG, 28 management included
savings related to the enrollment of retired Post Office Department employees 29 into
Medicare Parts A and B. However, these retirees did not contribute to Medicare as
employees and, therefore, were not eligible for current Medicare benefits. This
25
   We estimate the total future health care obligation to be $104.3 billion using a 4.5 percent discount rate, versus
90.2 billion using the OIG-calculated actuarial rate of 5.75 percent. $104.3 billion less $63.1 billion in proposed
savings equals $41.2 billion in future health care obligations after the savings from plan implementation. Plan assets
(estimated to be $49 billion) would exceed future health care obligations after plan implementation.
26
   $37.2 billion (use of Medicare coverage component) divided by $63.1 billion (total estimated cost savings).
27
   The Postal Service has employees who may retire as young as age 50. This group is generally not eligible for
Medicare until age 65.
28
   Dated September 23, 2011.
29
   Population consists of Post Office Department employees hired before the entity became the U.S. Postal Service.


                                                           7
U.S. Postal Service Alternative Health Care Plan Proposal                                           FI-MA-12-014



population included 6,543 employees with an average cost savings of $46,920 per
person. During the course of our review, we informed management of this error.
They concurred and removed this population from future Medicare savings
calculations, resulting in a decrease of about $31 million in estimated annual savings.
See Appendix B for our calculation of other impact.

Medicare Part B Enrollment Penalties

Current legislation requires those who are eligible for Medicare Part B to enroll by
age 65. Those who do not enroll within a specified period of time after retiring are
assessed a 10 percent, per year, late enrollment penalty. 30 We determined that about
88,000 retirees are over age 65 but have not enrolled in Medicare Part B. Therefore,
unless waived, the enrollment penalty would apply to these retirees. This penalty could
cost employees or the Postal Service an additional $53 million per year 31 for this retiree
population. Management assumed, in calculating cost savings, that the penalty would
be waived and did not include how they would address the penalty in their plan or
disclose the monetary effect on future retirees. We believe the Postal Service needs to
either ensure that it would provide a waiver to the employees age 65 or older, or
determine who would bear the responsibility for these costs and inform its employees
and retirees of this issue.

Impact on Employees, Future Retirees, and Retirees

The Postal Service’s plan, dated February 10, 2012, generated additional savings by
shifting costs to Postal Service employees who retire after January 1, 2014. As noted in
Table 1, over 20 percent 32 of the Postal Service’s health care plan savings was
generated from changes made to the claims payment process and the Postal Service’s
share of (contribution towards) monthly premiums, potentially increasing health care
costs to future retirees. Subsequent to our review of the plan, however, the Postal
Service informed us it removed from its health care proposal the feature to freeze the
dollar amount of the monthly premium it contributes to those employees retiring after
January 1, 2014. The plan does provide for current employees to see a reduction in
their share of premium contributions with the move to the four-tier coverage structure.
These changes in health care costs for employees and future retirees should be clearly
communicated to the workforce, as these factors may influence retirement decisions.




30
   Management’s white paper U.S. Postal Service Background and Legislative Proposals, dated August 31, 2011,
detailed their legislative proposal including a waiver to exclude Postal Service plan participants from late enrollment
penalties.
31
   Example assumes 5-year average late enrollment. A 10 percent penalty multiplied by 5 years multiplied by the
current monthly Part B premium of $99.90 multiplied by 12 months equals $599.40 per year per Medicare recipient.
$599.40 multiplied by the estimated Postal Service Medicare-eligible population not enrolled in Part B (88,000) equals
$52,747,200.
32
   $12.7 billion (impact on employees, future retirees, and retirees component) divided by $63.1 billion (total
estimated cost savings).


                                                          8
U.S. Postal Service Alternative Health Care Plan Proposal                                          FI-MA-12-014




Change in the Order of Payment Responsibility for Those Who Retire After
January 1, 2014

Employees who retire on or after January 1, 2014, will need to meet a standard
deductible 33 before the Postal Service pays any cost not covered by Medicare. Postal
Service costs are reduced because the employer has moved itself behind the employee
in the payment order. Table 2 shows how the Postal Service’s alternative health care
plan would shift an additional $1,000 of health care expenses 34 to an employee who
retires after January 1, 2014.

Table 2: Effect of Payment Approaches on the Retiree Starting January 1, 2014

       Plan Payment with Medicare Reduction Using Standard Coordination
                                 (Current Plan) 35
      a    Medical Expenses For One Person                         $ 5,000
      b    Medicare-Paid Expenses                                  $ 3,000
           Retiree Payments for Deductibles, Co-insurance, and      None
      c    Co-payments (plans pays first and retiree pays balance) needed
      d    Net Plan Paid Expenses: (a–b)                           $ 2,000
      Plan Payment with Medicare Reduction Using Plan Payment with
      Medicare Reduction with Proposed Coordination (Proposed Plan) 36
      e    Medical Expenses For One Person                         $ 5,000
      f    Medicare-Paid Expenses                                  $ 3,000
           Retiree Payments for Deductibles, Co-insurance, and Co-
      g    Payments (retiree pays first and plan pays balance)     $ 1,000
      h    Net Plan Paid Expenses : (e–g)                          $ 1,000
     Source: OIG analysis of Nyhart Review of USPS Retiree Health Actuarial Projections by the Hay Group,
     dated June 26, 2012. See Appendix C for a copy of the report.


Postal Service Share of Monthly Premiums

The Postal Service's February 10, 2012, plan called for freezing the dollar amount of the
monthly premium it contributes to those employees retiring after January 1, 2014. Under
the current OPM plan, the Postal Service's percentage of the monthly premium stays
constant as an employee ages. However, under management's alternative health care
proposal provided to us in February 2012, the Postal Service’s dollar amount
contribution remains constant. Thus, as health care costs increase, the percentage
contributed by the Postal Service declines, leaving the future retiree to bear the burden
of the increase in monthly premiums. The long-term impact of this change to future

33
   Standard deductible is the out-of-pocket expenses paid by the employee, consisting of deductibles, co-insurance,
and co-payments.
34
   Compare lines d and g.
35
   Postal Service program with current standard coordination (payment made in order of Medicare, employer,
employee).
36
   Postal Service program with carve-out coordination (payment made in employee, Medicare, employer order).


                                                         9
U.S. Postal Service Alternative Health Care Plan Proposal                                        FI-MA-12-014



retirees could be significant. Subsequent to our review of the plan, the Postal Service
informed us it removed this feature from its health care proposal.

Table 3 illustrates the reduction in the Postal Service’s percentage subsidy as health
care premiums costs increase by an average of 5.8 percent 37 annually.

                 Table 3: Employees Age 65 Retiring after January 1, 2014

                                                                                 Employee Premium
                                      Employee Premium Payment                 Payment Responsibility
                                      Responsibility (Percentage)                 (Dollar Amount)
                      Monthly                                Alternative       Current     Alternative
     Year    Age      Premium        Current Policy     38
                                                             Plan Policy       Policy     Plan Policy 39
     2014     65        $683             32.0%                  32.0%          $218.56           $218.56
     2015     66        $733             32.0%                  36.7%          $234.56           $269.01
     2016     67        $777             32.0%                  40.2%          $248.64           $312.35
     2017     68        $823             32.0%                  43.5%          $263.36           $358.01
     2018     69        $868             32.0%                  46.5%          $277.76           $403.62
     2019     70        $911             32.0%                  49.0%          $291.52           $446.39
     2020     71        $943             32.0%                  50.7%          $301.76           $478.10
     2021     72       $1,009            32.0%                  54.0%          $322.88           $544.86
     2022     73       $1,080            32.0%                  57.0%          $345.60           $615.60
     2023     74       $1,139            32.0%                  59.2%          $364.48           $674.29
Source: OIG analysis of Nyhart Review of USPS Retiree Health Actuarial Projections by the Hay Group, dated June
26, 2012. See Appendix C for a copy of the report.


Overall, the impact of implementing a new claims payment process and freezing the
Postal Service’s premium dollar contribution would add costs to future retiree and
annuitant health care premiums. All risks of additional cost associated with the final
proposal that moves forward should be clearly disclosed to future retirees along with the
potential monetary impact associated with these risks. This information could be
considered critical to employees planning retirement and might otherwise cause an
employee near retirement to adjust their plans. Moreover, updates to management’s
plan should include costs associated with the risks of accelerated retirement, as any
savings calculated as a result of freezing employer contributions would decrease as
more employees retire before January 1, 2014.

Four-Tier Coverage Structure

Under the proposed alternative health care plan, the Postal Service would offer four
coverage options instead of the two the current FEHB plan offers. 40 Under the four-tier

37
   Percentage used for illustrative purposes and deemed a reasonable estimate over the 10-year period based on
actuarial assumptions (Getzen model) from The Nyhart Company.
38
   Based on assumptions used by the Postal Service to compute cost savings, the Postal Service currently provides a
68 percent subsidy to its employees.
39
   Assumes the Postal Service freezes its monthly health care premium contribution to employees at $464.44.


                                                        10
U.S. Postal Service Alternative Health Care Plan Proposal                                          FI-MA-12-014



structure, we estimate the Postal Service’s monthly composite employer share of the
health care premiums would increase from $403 to $463 41 and result in a $7.2 billion
cost to the Postal Service.

Management intended its proposed plan to mirror the current FEHB plan’s employee
distribution between tiers and maintain the same level of coverage. Our estimate shows
a reduction in employee contribution as the structure expands to four tiers. Since the
premium contribution required of employee participants would be reduced, the employer
share of the premium contribution would increase to offset the reduction of employee’s
share of cost, thereby increasing the overall health care fund obligation by $5.5 billion
(as determined by the Postal Service). However, our analysis indicates that costs would
increase by $7.2 billion, which is slightly more than the Postal Service’s estimate but
considered reasonably consistent. See Table 4 for an illustrative comparison of current
versus proposed tiers.

        Table 4: Current Two-Tier Structure and Current Retiree Contributions

               Current 2011 Two-Tier Structure Expressed in a Four-Tier Format42
                             Self         Self and             Self and           Self and        Composite of
                             Only         Spouse               Children            Family         Family Levels
 Bi-weekly
 Premium                       $267               $603                 $603              $603                 $603
 Retiree
 Contribution                 ($86)             ($199)               ($199)            ($199)                ($199)
 Postal Service
 Subsidy                    $180           $403           $403         $403                                   $403
                        Proposed Four-Tier Structure and New Contributions
 Bi-weekly
 Premium                       $275               $577                 $466              $760                 $621
 Retiree
 Contribution                 ($70)             ($146)               ($118)            ($192)                ($157)
 Postal Service
 Subsidy                       $204               $430                 $347              $567                 $463
 Decrease in
 Monetary Retiree
 Contribution                 ($16)               ($53)                ($81)              ($7)                ($42)
 Decrease as
 Percentage of
 Current
 Contribution              18.60%                   NA                   NA                NA                21.1%
 Assumed Family
 Composition                                       60%                 10%                30%             100.00%
Source: OIG analysis of Nyhart Review of USPS Retiree Health Actuarial Projections by the Hay Group, dated June
26, 2012. See Appendix C for a copy of the report.

40
   The OPM plan provides for self only and family only coverage. The Postal Service’s alternate health care plan
would provide self only, self and spouse, self and children, and self and family options.
41
   Using the current Blue Cross Blue Shield standard plan (due to its popularity) as an example.
42
   Using the current Blue Cross Blue Shield standard plan as an example.


                                                          11
U.S. Postal Service Alternative Health Care Plan Proposal                                           FI-MA-12-014




Efficiencies from Purchasing Initiatives

The Postal Service’s plan generates comparatively minor savings by implementing
efficiencies from purchasing initiatives. As noted in Table 1, just 3 percent 43 of the
Postal Service’s health care plan savings is generated from initiatives related to lower
administrative costs, increased prescription drug procurement leveraging, more
competitive bidding, and a more comprehensive disease management program. 44 For
example, the Postal Service’s plan notes that lower administrative costs, increased
prescription drug procurement leveraging, and increased competitive bidding could be
attained through direct negotiation with an insurance provider. The Postal Service
currently does not have this capability under an OPM-governed plan. It is reasonable to
assume management could negotiate a more robust disease management program
directly with a health care provider that could result in additional savings. While overall
projected savings related to this initiative are difficult to estimate due to the human
factors associated with chronic disease education and management, our review of the
assumptions associated with efficiencies in purchasing initiatives resulted in similar
savings as those projected by management.

Availability of Office of Personnel Management Claims Data

Management did not have access to the OPM claimant data used to compute future
health care obligations and cost savings. The Postal Service contractor (Hay Group)
had access to more detailed data but OPM did not allow the contractor to provide this
information to the Postal Service or the OIG. This data included FEHB plan
demographics, including Postal Service population demographics, assumptions
regarding retirement age, turnover rates, and estimated health care premiums. The
Postal Service’s contractor used OPM data to determine cost savings associated with
the different areas. For the OIG analysis, we used independent data to evaluate the
Postal Service’s estimates. We believe the differences in cost savings resulted from the
Postal Service’s contract actuary using proprietary OPM data not available to us. Based
on the independent claims data available to us, we computed a greater overall cost
savings of an additional $7.9 billion. Therefore, since the Postal Service’s projected
savings are more conservative, we conclude the Postal Service’s cost savings overall
are reasonable.

However, the availability of specific claims data is critical. The Postal Service should
understand how employee and retiree claims data performs, particularly as it solicits
and selects an organization to implement its health care program. We believe the Postal
Service should obtain from OPM the important health insurance data of its employees.
Without that data, the Postal Service may not be able to get the best value for
administering its own health care program. Also, insurance companies bidding on
administering the Postal Service plan may have access to some or all Postal Service

43
  $1.9 billion (impact from purchasing efficiencies component) divided by $63.1 billion (total estimated cost savings).
44
  Disease management is the concept of reducing health care costs and/or improving the quality of life for individuals
with chronic disease conditions by preventing or minimizing the effects of a disease.


                                                          12
U.S. Postal Service Alternative Health Care Plan Proposal                      FI-MA-12-014



employee claim data due to prior participation in the FEHB. This could put the Postal
Service at a disadvantage in the bidding process.

Recommendations

We recommend the acting chief financial officer and executive vice president, in
consultation with the chief Human Resources officer and executive vice president; direct
the acting vice president, Finance and Planning, to:

1. Revise the Postal Service’s alternative health care plan projected savings to include
   the additional cost of shifting to the appropriate discount rate used for funding
   obligations for federal employee pension and other retirement benefits.

We recommend the acting chief financial officer and executive vice president, in
consultation with the chief Human Resources officer and executive vice president:

2. Disclose to affected employees, future retirees, retirees, and the federal government
   all potential cost increases, cost savings, and cost shifts that would result from a
   transition to a Postal Service-proposed alternative health care plan. This disclosure
   should describe detailed expected costs and savings to individuals based on choices
   available and timing of retirement.

3. Obtain historical claims data from the Office of Personnel Management to ensure the
   Postal Service has the information needed to obtain the best value when soliciting
   and selecting a health care provider to administer and implement its alternative
   health care plan.

Management’s Comments

Management provided a letter of response to the discussion draft report. Although
management did not specifically address the recommendations made in the report,
management agreed with our overall finding regarding the $63 billion in savings to be
reasonable. However, management disagreed with three broad areas: required
changes in accounting; use of Medicare; and impact on employees, future retirees, and
retirees.

Management disagreed with the term “accounting changes” as it suggests an adoption
of accounting procedures that are not consistent with generally accepted accounting
principles. The Postal Service intended to present its plan to show its future health care
liability, offset by assets, and noted it is the only approach suitable to illustrate how key
objectives of reducing or eliminating the unfunded heath care liability are met. They
acknowledged generally accepted accounting principles require the change to single-
employer reporting for financial statement purposes. Management maintains the
intended presentation of the plan would not be affected by this change.




                                                     13
U.S. Postal Service Alternative Health Care Plan Proposal                    FI-MA-12-014



Regarding the use of Medicare, management responded that its plan would reverse the
cost shifting that has been in place for years because the FEHB plan does not integrate
with Medicare, as is done in the private sector and state and local governments. Under
FEHB, if a retiree eligible for Medicare elects not to participate, the only consequence is
that he or she has the same level of medical benefits provided under FEHB before
retirement or Medicare eligibility. The only incentive to enroll in Medicare currently for
the retiree would generally be to avoid out-of-pocket costs such as deductibles,
co-pays, and co-insurance. The failure to integrate FEHB plans with Medicare is
detrimental to active employees and retirees because the current approach shifts costs
that would normally be borne by Medicare to FEHB. Finally, they noted our report did
not include Postal Service and employee contributions to Medicare of over $25 billion.

Regarding the impact on employees, future retirees and retirees, management stated
while the proportion of the total costs paid by the Postal Service, its employees, and its
retirees will change as described in the OIG report, out-of-pocket costs for most
employees and retirees will not increase. Specifically, the Postal Service has indicated
its intention to share a substantial portion of the cost savings with its employees and
retirees through lower contributions and no reduction in benefits. In addition,
management responded the OIG report did not adequately emphasize changes to the
plan since the plan date, such as Postal Service removal of the proposal to limit future
employer contributions for retiree premiums or the inclusion of a late enrollment penalty
waiver in the proposed legislation. See Appendix D for management’s comments in
their entirety.

Evaluation of Management Comments

The OIG considers management’s comments responsive to the findings in the report.
We disagreed with the discount rate the Postal Service used for the critical funding
assumption for its future health care obligation (liability). Critical management
assumptions used to estimate future liabilities are part of the accounting process. Also,
the OIG noted in the discussion draft report that the change to single-employer reporting
would differ from the liability stated in the Postal Service plan and is required under
generally accepted accounting principles. We acknowledge that single-employer
reporting liability is not a necessary part of the Postal Service plan for funding purposes,
but we provided this information for stakeholder transparency should management
implement the plan. Subsequently, we brought references out of the footnotes into the
body of the report to ensure clarity to both issues.

We acknowledge that the FEHB is not integrated with the Medicare program.
Additionally, OIG noted in the discussion draft report that the Postal Service and its
employees have paid into the Medicare program since 1983 (in footnotes). For
purposes of the final report, we brought the reference to Postal Service’s participation
out of the footnote and added the amount contributed into the body of the report.

The OIG also noted in the details of the discussion draft that the employee contribution
required under the four-tier coverage structure would decrease. For purposes of this



                                                     14
U.S. Postal Service Alternative Health Care Plan Proposal                  FI-MA-12-014



report, we added a sentence in the section’s opening paragraph to emphasize that
point. We also acknowledge that those retired before January 2014 will not be adversely
impacted, and we did not address in our report because they were not part of the cost
savings.

Finally, we agreed with Postal Service management that the review would be limited to
the subject document, dated February 10, 2012. Changes to the plan based on ongoing
negotiations with the various stakeholder groups would not be reassessed. However,
we did include in our report that the Postal Service subsequently removed its proposal
to limit future employer contributions for retiree premiums.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                                     15
U.S. Postal Service Alternative Health Care Plan Proposal                                              FI-MA-12-014




                                  Appendix A: Additional Information

Background

The Postal Service has experienced volume declines as a result of the recent recession
and the shifting of hard copy communications to digital alternatives. In the 5-year period
from FYs 2007 through 2011, mail volume declined from 213 billion pieces to 168 billion
pieces, or about 21 percent, while postal rate price increases were held at inflationary
rates. The Postal Service experienced a loss of over $25 billion over this period,
including the loss of $5.1 billion in FY 2011. First-Class Mail has a significant impact on
revenue as it generates about two-thirds of Postal Service’s income. In addition, the
Postal Service has significant personnel expenses. The OPM has estimated the Postal
Service’s future retiree health care obligation will be $102 billion by 2013. To date, the
fund has assets of $49 billion, leaving an anticipated unfunded balance of $53 billion. 45
To address the unfunded portion, the law requires the Postal Service to provide an
annual payment of about $5.6 billion to fund future retiree health benefits. 46 Decreasing
revenue and significant expense conditions have resulted in a significant cash shortfall.
The Postal Service was unable to make the required pre-funding payment due in
August, and its current financial projections indicate that it will not be able to make the
required pre-funding payments due in September 2012.

To partially address its cash flow problems and eliminate its retiree health care
unfunded obligation, the Postal Service proposed an alternative health care plan. The
proposal includes the following seven components. All components are cumulative in
nature and cannot be taken in isolation. Each component, taken by itself outside of the
plan as presented, could result in a difference in calculated savings.

1. Modify its accounting for health care costs to match a private sector model.

2. Require Medicare-eligible annuitants and survivors who are not currently fully
   participating to enroll in Medicare A and B with no late enrollment penalty. 47 Part A
   would be free to qualified annuitants who timely enroll in Medicare, and Part B would
   require voluntary election and payment of a monthly premium. Medicare-age
   annuitants not already enrolled in Part B would be responsible for the monthly Part B
   premium (currently $99.90/month).

3. Coordinate prescription drug benefits with Medicare Part D using an EGWP/wrap
   approach for enrollees over 65. The EGWP/wrap allows for a prescription drug
45
   The Postal Service’s total health care obligation of $102 billion, less plan assets of $49 billion, equals the unfunded
healthcare obligation of $53 billion.
46
   The 2012 Consolidated Appropriations Act, the most recent law affecting the Postal Service Retiree Health Benefits
Fund payment, changed the due date of the $5.5 billion pre-funding payment originally due September 30, 2011, to
August 1, 2012. As a result, the total required pre-funding payment in 2012 is $11.1 billion: $5.5 billion due by
August 1, 2012, and $5.6 billion due by September 30, 2012.
47
   Currently, the late enrollment penalty is 10 percent for Part A and 10 percent for each 12-month period one could
have had Part B but did not sign up. The Postal Service’s proposal includes a congressional waiver of the mandatory
late enrollment penalty for enrollees who fail to enroll in Medicare after their initial eligibility period.


                                                           16
U.S. Postal Service Alternative Health Care Plan Proposal                                                FI-MA-12-014



     subsidy before applying insurance benefits, maintaining the retiree share of the cost
     while the employer achieves the cost savings. Specifically, EGWP/wrap is an official
     Medicare Part D program with a provision that ensures retired employees will
     receive the same benefits as those currently offered. In addition, it allows an
     employer to achieve significant plan savings above those achieved from participating
     in Medicare’s retiree drug subsidy program alone. Generally, savings occur later in
     the year when a retiree accumulates more and more prescription drug costs. Once
     cumulative drug costs reach a certain level (roughly $3,000 to $6,400 dollars –
     called the “donut hole”), the employer directly benefits from price concessions
     funded by the pharmaceutical industry. The wrap feature is a necessary design that
     provides continuity of coverage for brand name drugs during the donut hole period
     and keeps retirees’ out-of-pocket costs from increasing. Therefore, moving to an
     EGWP/wrap arrangement would result in a reduced employer share of retiree claim
     costs for retirees and survivors over age 65.

4. Shift from the current (single and family) two-tier health care structure to a four-tier
   coverage structure: employee only, employee and spouse, employee and children,
   and employee and family.

5. Implement improved private sector-style health care purchasing arrangements to
   include competitive bidding, administrative cost improvements, and implementation
   of wellness and disease management programs.

6. Change the order of responsibility for payment of health care costs. Under this
   process, the current standard coordination 48 of benefits claims payment process
   used in the FEHB plan would be relinquished in favor of using a “carve-out”
   coordination 49 methodology. Specifically, employees who retire on or after
   January 1, 2014, would need to meet a standard deductible, co-payment, or
   co-insurance payment before the Postal Service would pay any cost not covered by
   Medicare.

7. Freeze the Postal Service’s retiree health care premium subsidy at 2013 dollar
   levels for employees who retire after January 1, 2014. As the Postal Service’s dollar
   subsidy remains constant as a dollar amount, future retiree monthly contributions
   would increase $1 for $1, as the premiums increase. Subsequent to our review of
   the February 10, 2012, plan, the Postal Service informed us it removed this feature
   from its health care proposal.

By implementing all these items, management estimates its unfunded liability would be
eliminated and its future retiree health care obligation would be reduced to $39.3 billion,
based on projected cost savings, by January 2014. 50

48
   Standard coordination requires that payment for health care services be made in Medicare, private insurance, the
employer, employee order.
49
   Carve-out coordination requires that payment for health care services be made in employee, Medicare, private
insurance, employer order.
50
   Plan assets are $48.9 billion. If the health care obligation is reduced to $39.3 billion by implementing this alternative
health care program, the Postal Service would fully fund its future health care obligations.


                                                            17
U.S. Postal Service Alternative Health Care Plan Proposal                     FI-MA-12-014




Objective, Scope, and Methodology

Our objective was to evaluate the reasonableness of the critical assumptions and the
impact on the unfunded health care obligation in management’s proposal to offer its
own health care benefits plan in lieu of remaining in the OPM’s FEHB plan. To address
our objective, we:

   Reviewed supporting health care proposal documentation, applicable accounting
    standards guidance, previous Government Accountability Office and Postal
    Regulatory Commission reports, and testimonies related to Postal Service health
    care.

   Evaluated the accuracy of actuarial model computations.

   Performed benchmarking procedures to determine best practices.

   Interviewed Postal Service subject matter experts, including contractors, regarding
    health care proposals.

   Interviewed Postal Service union representatives regarding proposed health care
    changes.

   Engaged an independent actuary firm, The Nyhart Company, to opine on the critical
    assumptions used to prepare health care cost actuarial projections. See Appendix C
    for the Nyhart Review of USPS Retiree Health Actuarial Projects by the Hay Group,
    dated June 26, 2012.

We conducted this review from September 2011 through August 2012 in accordance
with the Council of the Inspectors General on Integrity and Efficiency, Quality Standards
for Inspection and Evaluation. We discussed our observations and conclusions with
management on August 1, 2012, and included their comments where appropriate. We
did not rely on computer-generated data. Rather, we used data independent of the
Postal Service to evaluate the assumptions and cost savings.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to this objective.




                                                     18
U.S. Postal Service Alternative Health Care Plan Proposal                                            FI-MA-12-014



                                       Appendix B: Other Impacts

                                                                                               Amount
         Recommendation                         Impact Category                             (in millions)
               2                        Predicted Savings Shortfall 51                                $307

Management’s calculation 52 for the integration of Medicare Parts A and B included
employees who were not eligible for Medicare (6,543 employees), with an average cost
of $46,920 per person. The $307 million in savings is cumulative over a 10-year period,
with annual savings of $30.7 million. This was included in management’s proposed plan
dated September 23, 2011, but was subsequently removed in their February 10, 2012,
updated plan after we brought it to management’s attention.




51
   The difference between the savings the Postal Service predicts for its alternate health care plan and the OIG’s
estimate of savings which will be realized.
52
   Included in report titled United States Postal Service Retiree Health Benefits (dated September 23, 2011).



                                                          19
U.S. Postal Service Alternative Health Care Plan Proposal       FI-MA-12-014




                                   Appendix C: Actuary Report




                                                     20
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     21
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     22
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     23
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     24
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     25
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     26
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     27
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     28
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     29
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     30
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     31
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     32
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     33
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     34
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     35
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     36
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     37
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     38
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     39
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     40
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     41
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     42
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     43
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     44
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     45
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     46
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     47
U.S. Postal Service Alternative Health Care Plan Proposal       FI-MA-12-014



                            Appendix D: Management’s Comments




                                                     48
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     49
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     50
U.S. Postal Service Alternative Health Care Plan Proposal   FI-MA-12-014




                                                     51
